                                                    NATIONAL SCffiNCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 110050023                                                                           Page I ofl




         A grantee universityl self disclosed to NSF OIG that it had incorrectly overcharged salaries to an
         NSF award? This investigation was opened to assist the university in returning the overcharged
         funds, and to determine ifany other corrective action was necessary to prevent future overcharges to
         federal awards.

         OIG reviewed the audit that had identified the overcharges, the university'S corrective action plan,
         and records related to the corrective actions. Upon review of this documentation, it appeared that the
         university had taken steps to prevent similar :rriischarging in the future, to include the implementation
         of an internal training program and a new effort reporting system. Though some ofthese steps are
         ongoing and require further updates, OIG is satisfied with the university's corrective actions to date
         and its plan to continue to improve its internal systems and provide the necessary training.

         The university returned $32,772.14 in overcharged funds to NSF, and OIG sent the university a letter
         to re-emphasize the need for strict adherence to award conditions and encouragecQntinued internal
         trainingand oversight.

         This case is closed.




         2




NSF DIG Fonn 2 (11102)
